HHS/OIG, Audit -"Application Controls at the New Hampshire Medicaid State Agency - Identification of Suspect Duplicate
Claims,"(A-01-04-00003)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Application Controls at the New Hampshire Medicaid State Agency - Identification of Suspect Duplicate Claims," (A-01-04-00003)
February 9, 2005
Complete
Text of Report is available in PDF format (804 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if the New Hampshire Medicaid Management Information System (MMIS) claims
edit routine and subsequent resolution process for reviewing suspect duplicate claims are adequate.  The MMIS claims
edit process is effective in identifying suspect duplicate claims; however, the claims resolution procedures are less than
effective in determining the disposition of the duplicate claim - to either deny or pay.  Specifically, we determined
that $548,740 ($274,370 Federal share) in suspect duplicate claims should not have been forced through the claims processing
system for payment.  We recommended that the New Hampshire Medicaid State Agency (1) recover the potential overpayments,
(2) revise and update the instructions and criteria used by claims resolution staff to review suspect duplicate payments,
and (3) provide training to claims resolution staff for reviewing suspect duplicate claims.